The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436



VIA ELECTRONIC TRANSMISSION



June 29, 2011                                                          OIG-JJ-008


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report Audit of Account
Management OIG-AR-11-11. In finalizing the report, we analyzed management’s
comments on our draft report and have included those comments in their entirety in
Appendix A.

This report contains eight recommendations for corrective action. In the next 30 days,
please provide me with your management decisions describing the specific actions that you
will take to implement each recommendation.

Thank you for the courtesies extended to my staff during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                                U.S. International Trade Commission
                                            Audit Report



Table of Contents
Results of Audit............................................................................................. 1

Areas for Improvement ................................................................................ 2
   Area for Improvement 1: Data owners should maintain permissions to restrict access to
   data.................................................................................................................................. 2

   Area for Improvement 2: Consistently configure network accounts for contractors...... 3

   Area for Improvement 3: Reduce the number of authentication systems in use. ........... 4

Management Comments and Our Analysis ............................................... 5

Objective, Scope, and Methodology ............................................................ 5
Appendix A: Management Comments on Draft Report......................... A




                                                                  -i-
                     U.S. International Trade Commission
                                 Audit Report


                                 Results of Audit
The purpose of the audit was to answer the question:

       Does the Commission effectively limit network access?

Yes, the Commission effectively limits network access.

Organizations control access to data by limiting network access, typically by requiring
the use of credentials that include something the user knows, such as a user name and a
password. Organizations with stronger authentication requirements also require
something users physically possess, such as an authentication device or Personal Identity
Verification (PIV) card. When this information is entered into a system, an
authentication system checks to see that an account with the user name exists, is enabled,
and verifies the password. Once authenticated, the login process is allowed to continue,
and the user receives access to the data they have been permitted to modify and view.
Preventing access to the network by unauthorized users is the most important component
of an account management program. The Commission prevented unauthorized access by:

   1. Immediately disabling accounts when users are no longer authorized to access the
      network;
   2. Requiring the use of a hardware device, a PIN, an active user account and a strong
      password to access the network externally; and
   3. Requiring physical identification, an active user account and a password to access
      the network internally.

Enabled accounts allow access to the network. When users leave, these accounts should
be immediately disabled to prevent unauthorized access to the network. On January 13,
2011, we performed an analysis of user accounts on the ITCNet domain, and found that
no user accounts were improperly enabled. The Commission has done an effective job of
removing this important means of unauthorized network access.

While the Commission effectively prevents unauthorized network access, we have
identified some areas where it can further improve its security controls concerning users
that are authorized to access the network. These areas include maintenance of
permissions to better restrict access to data, improved consistency of contractor account
data, and consolidation of authentication systems.




OIG-AR-11-11                                1
                      U.S. International Trade Commission
                                  Audit Report


                             Areas for Improvement

                           Area for Improvement 1:
        Data owners should maintain permissions to restrict access to data.


Commission staff and contractors access data using a variety of means, primarily through
the use of intranet sites and mapped network drives. Much of this data is grouped by
office, where staff in those offices work on data specific to that office. In many offices,
such as Human Resources, Finance, and Investigations, the permissions granted are
intended to make data accessible only to the staff of those offices.

We analyzed the permissions assigned to two users that had been recently reassigned to
new, permanent positions in the Commission. We found that their permissions reflected
the needs of their current positions, but also inappropriately provided them with office-
specific access required by their previous positions.

Because permissions are typically discovered using technical tools, the owners of data
may not know or control who retains access to their data. Over time, as employees are
reassigned to other roles within the organization, their permissions need to be updated to
reflect these new roles. If permissions are not kept up-to-date, they become a historical
record of all users or accounts that ever had access to that data, instead of identifying who
currently has access to the data. Our analysis of the Commission’s shared files and
folders identified 260,545 variations in permissions for shared data, a large number, for
an organization with less than 500 users. The Commission places the responsibility for
maintaining these permissions on the Chief Information Officer (CIO), but only the
owners of data actually know who should have access.

The maintenance of correct permissions requires a concerted effort by the functions of
contracts, human resources, personnel security, and program offices to provide the CIO
with status updates as they relate to accounts and their access to data. For example, when
an employee is detailed or reassigned, the new program office must notify the CIO that
the employee has new responsibilities which require new permissions, and the original
program office must define the permissions no longer required. If this process is not
implemented, users will retain access to data that their jobs do not require, and the
Commission’s data will be subject to unnecessary risk.

To maintain correct permissions for access to Commission data, the CIO should
periodically provide clear reports to data owners detailing who has access to their data,
and assist in the maintenance of these permissions.

Recommendation 1:

That the Commission develop and implement a program to have the functions of


OIG-AR-11-11                                 2
                     U.S. International Trade Commission
                                 Audit Report

contracts, human resources, personnel security, program, and other administrative offices
notify the CIO when employee or contractor assignment status changes require the
enabling or disabling of permissions.

Recommendation 2:

That the Commission identify the owner of all office and division-specific data.

Recommendation 3:

That the CIO perform a one-time cleanup of file and folder permissions.

Recommendation 4:

That the CIO provide a periodic listing of permissions to data owners.

Recommendation 5:

That the data owners review permissions on a periodic basis to verify that all users with
access are authorized.



                              Area for Improvement 2:
              Consistently configure network accounts for contractors.


The Commission identifies contractor accounts through several means, such as including
“(Contractor)” in the account description, and through membership in a special
“Contractors” group. It also sets an automatic expiration date for these accounts that is
tied to the final day of the contract. These conditions allow contractor accounts to be
quickly recognized and insures that access to the network does not extend beyond the
contract expiration date.

While analyzing contractor accounts, we found:

   x   Some members identified in the “Contractors” group were in fact employees;
   x   Contractors were not always identified in the account description or through
       contractor group membership; and
   x   Some contractor accounts were missing the expiration date associated with their
       contract.




OIG-AR-11-11                                 3
                      U.S. International Trade Commission
                                  Audit Report

The Commission has not consistently implemented its procedures to identify Contractor
accounts. Because of this, it is difficult to identify Contractor accounts, increasing the
risk that these accounts might not be quickly disabled upon contract expiration.

Recommendation 6:

That the CIO update all contractor accounts to consistently identify these accounts and
their contract expiration dates.



                             Area for Improvement 3:
                Reduce the number of authentication systems in use.


Authentication systems make it possible to have one username and password to access
multiple systems, including workstations, fileservers, and email services. Centralized
authentication systems eliminate the need for users to remember and maintain multiple
accounts and passwords, and reduce the labor required to manage user accounts.

The CIO has effectively limited the number of authentication systems for standard users
of workstations and servers in the Active Directory domain; however, the CIO has not
implemented a centralized authentication system for many servers or network
infrastructure devices. Currently, each of these devices maintains its own authentication
infrastructure, resulting in redundant user accounts, passwords, and inefficient account
management.

Recommendation 7:

That the CIO identify all authentication systems in use within the Commission.

Recommendation 8:

That the CIO evaluate opportunities to reduce the number of authentication systems in
use.




OIG-AR-11-11                                 4
                     U.S. International Trade Commission
                                 Audit Report


              Management Comments and Our Analysis

On June 21, 2011, Chairman Deanna Tanner Okun provided management comments on
the draft audit report. The Chairman agreed with our assessment that the Commission is
effectively limiting network access, and recognized that the Commission can further
enhance its security by implementing the recommendations detailed in the three areas for
improvement. The Chairman’s response is provided in its entirety as Appendix A.



                    Objective, Scope, and Methodology
Objective:

Does the Commission effectively limit network access?

Scope:

On January 13, 2011, we audited the enabled accounts on ITCNet. Operational staff
provided us with the account policies and listings of enabled accounts for a range of other
infrastructure devices including servers, RSA authentication, and permissions for domain
users of shared drives.


Methodology:

       a. Collect and analyze enabled accounts on the ITC domain.
       b. Collect data for users of systems not authenticated by the ITC domain.
       c. Analyze logs for secondary authentication systems (hardware tokens for
          remote access).
       d. Assess and attempt to quantify different authentication systems in use.
       e. Analyze permissions for commonly used file shares.
       f. Identify user permissions unrelated to current job functions.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-11-11                                 5
         U.S. International Trade Commission
                       Appendix



Appendix A: Management Comments on Draft Report




                         A
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
